OIG Audit Report GR-30-01-001
Office of Community Oriented Policing Services Grant to the Town of Rhodell, West Virginia
Audit Report GR-30-01-001 	
November 22, 2000
Office of the Inspector General

Executive Summary
On June 5, 2000, the Office of the Inspector General, Audit Division, issued a warning letter (See Attachment 2) on a grant awarded to the Town of Rhodell (grantee) by the Office of Community Oriented Policing Services (COPS).  The grantee was awarded a grant totaling $8,100 to hire one full-time officer under the Funding Accelerated for Small Towns (FAST) program, and two supplemental grants totaling $157,784 under the Universal Hiring Program to hire four full-time officers.

Grant guidelines require that each grantee establish and maintain an accounting and financial records system to accurately account for funds awarded.  Such a system should:

present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits;

	assure responsible use of grant funds;

	assure that funds are spent in conformance with the grant conditions; and

	provide the necessary information for periodic review and audit.

On August 25, 2000, the grantee provided us with a copy of its financial records pertaining to the grant.  After reviewing these records, we concluded that the audit could not be conducted for the reasons listed below.
 
The grantee had no financial records pertaining to the grant prior to July 1, 1997.  The Mayor of Rhodell stated that these records had been stolen.  Thus, the grantee did not have budgets, which supported operational costs and the number of sworn police officers for the period September 1, 1994 through June 30, 1997. Without this documentation, we could not evaluate if the grantee budgeted for decreases in police services in anticipation of receiving a COPS grant.

The grantee had no documentation available to support grant expenditures from grant inception through December 31, 1996.  The grantee had only incomplete documentation for the remainder of the grant period.  Also, the grantee had no documentation as to the source of matching funds or for retention of officers.  

Because the grantee could not provide us with the critical records previously described, and we were not able to apply other auditing procedures to satisfy ourselves that grant funds were spent in accordance with grant terms and conditions, the scope of our work was not sufficient to enable us to determine if the grantee was in compliance with the grant terms and conditions.  Therefore, we are questioning $121,015 drawn down by the grantee as unsupported and recommending that the remaining balance of grant funds of $44,869 be withheld as funds to better use.